               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Dayton, OH Processing and
     Distribution Center Congressional
                  Request

               Management Advisory




                                              March 5, 2012


Report Number DA-MA-12 004
                                                                               March 5, 2012
                                             Dayton, OH Processing and Distribution
                                                     Center Congressional Request
                                                          Report Number DA-MA-12-004




IMPACT ON:
Dayton Processing and Distribution          WHAT THE OIG RECOMMENDED:
Center (P&DC) personnel and the             Based on our finding, we did not make a
general public.                             recommendation.

WHY THE OIG DID THE AUDIT:                  WHAT MANAGEMENT SAID:
The report responds to a request from       The Postal Service reviewed the
the Office of Senator Sherrod Brown         discussion draft of this report and had
regarding an anonymous November 28,         no comments or concerns. Management
2011 complaint. The complaint was from      elected not to provide written comments
a U.S. Postal Service employee working      because there were no
at the Dayton P&DC who indicated that       recommendations.
the plant manager stopped the mail
cancellation process to meet their goal     Link to review the entire report
to process mail by 9:30 p.m. Allegedly,
unprocessed mail entered the
mailstream, bypassing the Biohazard
Detection System (BDS).

Our objective was to determine whether
the Dayton P&DC plant manager
bypassed the BDS while processing
mail.

WHAT THE OIG FOUND:
Based on our review of the Advanced
Facer Canceller System runtime data,
on-site observations, and interviews with
Dayton P&DC personnel, we concluded
the allegation that the Dayton P&DC
plant manager bypassed the BDS while
processing mail was not substantiated.
March 5, 2012

MEMORANDUM FOR:            JORDAN M. SMALL
                           VICE PRESIDENT, EASTERN AREA OPERATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Dayton, OH
                           Processing and Distribution Center
                           Congressional Request
                           (Report Number DA-MA-12-004)

This report presents the results of our audit of the Dayton Processing and Distribution
Center congressional request (Project Number 12YO016DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.

Attachments

cc: David E. Williams Jr.
    Joshua D. Colin
    Frank Neri
    Corporate Audit and Response Management
Dayton, OH Processing and Distribution                                                               DA-MA-12-004
 Center Congressional Request



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Bypassing the Biohazard Detection System .................................................................... 1

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 3
Dayton, OH Processing and Distribution                                                     DA-MA-12-004
 Center Congressional Request



Introduction

This report presents the results of our review of an allegation against a manager at the
Dayton Processing and Distribution Center (P&DC) (Project Number 12YO016DA000).
On December 13, 2011, the U.S. Postal Service Office of Inspector General (OIG)
received an inquiry from the office of the Honorable Sherrod Brown, U.S. Senator from
Ohio, regarding an anonymous complaint from a U.S. Postal Service employee working
at the Dayton P&DC. The complaint indicated that the plant manager stopped the mail
cancellation process to meet their goal to process mail by 9:30 p.m.1 Allegedly,
unprocessed mail entered the mailstream, bypassing the Biohazard Detection System
(BDS).2 Our objective was to determine whether the Dayton P&DC plant manager
bypassed the BDS while processing mail. This audit addresses operational risk. See
Appendix A for additional information about this audit.

Within a geographic area, mail is collected from residential mailboxes, curbside
collection boxes, and retail units and transported to a local P&DC for sorting and
processing. Mail that meets automation processing specifications passes through an
Advanced Facer Canceller System (AFCS) machine, which automatically faces cancels
postage and postmarks letters.3 While the AFCS processes mail, the BDS collects air
samples and automatically performs a periodic analysis to determine whether
biohazards are present.

Conclusion

Based on our review of the AFCS Web End–of–Run (WebEOR)4 data, onsite
observations, and interviews with Dayton P&DC personnel, we concluded the allegation
that the Dayton P&DC plant manager bypassed the BDS while processing mail was not
substantiated.

Bypassing the Biohazard Detection System

The allegation that a Postal Service employee made in a letter dated November 28,
2011 to Senator Brown did not identify a specific timeframe when mail allegedly
bypassed the BDS. Based on our analysis, we identified that AFCS/BDS stop times
varied daily and there was no evidence the plant manager fixed the stop time at 9:30
p.m.


1
  The Postal Service has created goals to complete eight critical operations for processing and delivering mail using a
24-hour clock. Cancelling mail by a set time is one of the critical goals.
2
  The purpose of the BDS is to protect Postal Service personnel and the general public from the threat of
biohazardous materials sent through the mail.
3
  Facing is the process that positions envelopes so that the address and stamp face the same direction. Canceling
alters the postage stamp to prevent re-use and postmarking identifies the mail processing facility and the date on
which the letter is processed.
4
  WebEOR is a software application that allows end users to retrieve, view, and store various EOR statistics from
automated mail processing equipment.
                                                            1
Dayton, OH Processing and Distribution                                                 DA-MA-12-004
 Center Congressional Request


The Dayton P&DC has four AFCS machines. Using WebEOR data, we reviewed the
average AFCS machine stop times for a 3-month period (September through November
2011) leading up to when the Postal Service employee sent the allegation to Senator
Brown. The Postal Service employee alleged that the plant manager stopped the
cancellation process to meet their goal to process mail by 9:30 p.m., thus bypassing the
BDS. The purpose of our analysis was to identify whether the plant manager stopped
the four AFCS machines at 9:30 p.m. to meet clearance time goals. Our analysis, as
seen in Table 1, indicated that the average AFCS stop times ranged from 9:32 p.m. to
9:41 p.m. based on the mail volume presented during our 3-month review period. This
data also revealed that, over the same timeframe, there were 42 days during which the
AFCS machines operated later than 10 p.m.

                               Table 1 – AFCS WebEOR Stop Times
                                         Dayton, OH P&DC
                                                                                        Average
              AFCS            September             October          November
                                                                                         End-of-
             Machine            2011                 2011              2011
                                                                                        Run Time
           Machine 1            9:43 p.m.          9:49 p.m.          9:30 p.m.         9:41 p.m.
           Machine 2            9:24 p.m.          9:44 p.m.          9:27 p.m.         9:32 p.m.
           Machine 3            9:45 p.m.          9:36 p.m.          9:36 p.m.         9:38 p.m.
           Machine 4            9:45 p.m.          9:49 p.m.          9:22 p.m.         9:39 p.m.


In addition to analyzing the WebEOR data, we conducted onsite observations of mail
processing operations and interviewed plant personnel. We observed the start and end
times of the incoming mail being processed on the AFCS machines. During our onsite
observations on February 7-8, 2012, the average stop times ranged from 8:54 p.m. to
9:15 p.m., respectively. We found these times to be appropriate based on the volume of
collection mail processed.

We also interviewed 13 plant personnel,5 including supervisors and mail handlers, who
were associated with the incoming collection mail operation. The 13 employees stated
that at no time were they directed to stop the cancellation operation to meet their
9:30 p.m. clearance time goals. Plant personnel also stated that, as clearance time
approached 9:30 p.m. and there was still mail to be cancelled, the normal practice was
to process all incoming mail regardless of the clearance time goals. Based on our
interviews, we found no evidence that the plant manager instructed employees to stop
the collection mail process to meet their clearance time goals.

Based on the results of our review, we did not make a recommendation. Management
elected not to provide written comments because there were no recommendations.




5
 We interviewed two managers and 11 mail handlers, which includes all personnel from the incoming collection mail
operation on that tour at the Dayton P&DC.


                                                        2
Dayton, OH Processing and Distribution                                  DA-MA-12-004
 Center Congressional Request


                             Appendix A: Additional Information

Background

Within a geographic area, mail is collected from residential mailboxes, curbside
collection boxes, and postal retail units and transported to a local P&DC for sorting and
processing. Upon arrival at a P&DC, mail is separated by mail type — stamped letters
and flat mail — and placed into a culling machine to separate mail that does not meet
the letter mail automation processing specifications. Once separated, letter mail passes
through the AFCS machine, which automatically faces, cancels, and postmarks letters
at a rate of 36,000 per hour.

While the AFCS processes mail, BDS units collect air samples and automatically
perform periodic tests on the samples. This test cycle occurs every hour and a BDS unit
can continually test unattended for a full 10 hours. The purpose of the BDS is to reduce
the threat to Postal Service personnel and the general public of biohazardous materials
sent through the mail. The BDS is attached to the front of the AFCS and must be ‘on’ for
the mail processing equipment to operate. This feature helps ensure that processed
mail is tested for biohazards before the mailpiece leaves the facility.

Objective, Scope, and Methodology

Our objective was to determine whether the Dayton P&DC plant manager bypassed the
BDS while processing mail. To accomplish our objective, we reviewed the AFCS
WebEOR data, conducted onsite observations, and interviewed Dayton plant personnel.

We conducted this review from December 2011 through March 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on February 24, 2012, and included their comments where appropriate.

We assessed the reliability of WebEOR data by interviewing plant officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

We did not identify any prior audits or reviews related to the objective of this audit.




                                              3
